U.S. Department of Labor	                Office of Inspector General
                                         Washington, DC. 20210




June 23, 2010


MEMORANDUM FOR:            JOSEPH A. MAIN
                           Assistant Secretary
                            for Mine Safety and Health




FROM:                      ELLIOT P. LEWIS
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Alert Memorandum: MSHA Set Limits on the
                           Number of Potential Pattern of Violation Mines to be
                           Monitored
                           Report No. 05-10-004-06-001

The purpose of this memorandum is to alert you to a matter related to MSHA’s
past implementation of its Pattern of Violation (POV) authority that requires
immediate corrective action. The results included in this interim report are based
on our limited work to date. Fieldwork is continuing and we will provide overall
results when our audit work is complete.

MSHA’s POV activity addresses mines with an inspection history of recurrent
significant and substantial violations of mandatory safety or health standards that
demonstrate a mine operator's disregard for the health and safety of miners. In
2007, MSHA implemented its POV Screening Criteria and Scoring Model to
identify potential POV mines. In March 2009 when the Coal Mine Safety and
Health (CMS&H) Administrator notified his District Managers of mines meeting
the POV screening criteria (including scores for each mine) he directed them to
“select no more than one mine on the initial screening list per field office
and a maximum of 3 mines per district.” We were told this guidance was
necessary to address resource limitations. However, this instruction set a limit
that was inappropriate for this enforcement program.

MSHA’s initial screening process allowed program Administrators to remove
mines from the original list based on a written justification from the District
Manager. Our preliminary review of information provided by MSHA shows that
MSHA performed five POV analyses between 2007 and 2009. Those analyses
identified 89 mines for potential POV status. For a variety of reasons (not yet




                  Working for America’s Workforce
                                                   -2-



validated through audit procedures), MSHA officials removed 21 of these mines
from the initial screening lists. Mines that were removed did not receive letters
notifying them of potential POV status nor did MSHA monitor these mines for
improved rates of significant and substantial violations.

The stated reason for removing some mines appears reasonable. For example,
we were advised that three mines were removed because they were no longer
producing coal. However, it appears that CMS&H removed at least 10 mines 1
because of the limit established by the CMS&H Administrator’s instruction.


                              Potential POV Mines 2007 - 2009
                                    # of Mines                         # of Mines
                                   Identified by       # of Mines       Removed
                                        POV             Removed        From Initial
                                    Screening          From Initial    Screening
                                    Criteria and       Screening      List Because
                     Analysis         Scoring               List      of Limits Set
                       Date            Model          (All reasons)    by CMS&H
                      Jun-07              8                   -             -
                      Dec-07             21                  1              -
                      Jun-08             19                  4              -
                      Feb-09             26                  11             9
                      Sep-09             15                   5             1

                     Totals              89                21              10



We are very concerned about mines removed for reasons other than appropriate
consideration of the health and safety conditions at those mines. MSHA is not
subjecting these mines to the enhanced oversight that accompanies potential
POV status, yet it does not have evidence that they had reduced their rate of
significant and substantial violations. As a result, miners may be subjected to
increased safety risks.

Although MSHA has suspended use of its POV Screening Criteria and Scoring
Model while it evaluates possible revisions, we recommend that MSHA
immediately re-evaluate the appropriate POV status of the 10 mines that were
previously removed from POV oversight and monitoring based on the CMS&H
limits. We also recommend that MSHA assure that on future POV analysis all
decisions to include or remove mines from POV-related enforcement efforts are
based solely on the health and safety conditions at each mine.

We request that you take action and respond to this report within 10 days on
actions taken. Please contact Charles Allberry, Audit Director, MSHA Audits, at
(312) 353-2416, if you have any questions.
1
    Total includes nine individual mines; one mine was removed in two separate cycles.
